                                         NATIONAL SCIENCE FOllNDATlON
                                              4201 WILSON BOULEVARD
                                             ARLINGTON, VIRGINIA 22230




      OFFICE OF
 INSPECTOR GENERAL
     MEMORANDUM

     Date:                 April 22, 1999
     To:                   File No. I99030005
     From:

     Via:
     Subject:


 Background:

 We received a letter dated




 The alle ations came from a former postdo toral fellow and co-founder- o
g                  o also worked under
                                     s -                         listed as the PI on one
 of three NSF awards at issue.
                                                                                                  I
  According to the l e t t e r , m c e i v e d and investigated several allegations raised by-
-he             following issues are of concern to our oflice: 1                  har ed higher
                                                           I
  prices on certain products to some labs than others within                                da
  financial interest in d                   that he ordered              upplies under the NSF
  awards.

_1'n~uiry              and Findings:

 Allegation 1: Pricing inconsistencies on specific products to different labs within-

F i r e c t o r of Purchasing, and other              dministrative officials inquired
 into various aspects of the COI allegations,                 or not the lab was
 overcharged for the supplies, and whether they were overstocked on these supplies.

                                an inquiry into all facets of the Laboratory's
                             He interviewed a number of requisitioners, including
                                    who disclosed she had received an

 I   The letter stater t     h   a   t   a   s paid salary under NlH awards.
                         l
                             having ordered supplies fro
                                                                fi
                             was cause for the difference in prices across


                                                                                                               -
                                                                                      ade a determination that there
                                                                                  ependent upon when customers first
                             ordered and whether or not manufacturer's price increases had been passed on to them.

                                            e                 d to disclose his personal interest in

                                                                                              the institution that he had an ownership
                                                                                                                                                    I




                                                                              .I.);                                             --
                                                                                                                               m.1,); and
                                                                                      P.I.)

                                                   mgloyrnent wit-                             terminated on January 3 1, 1999 for
s ' no i t u t i t sn! %
                       ! ! !8                               COI policy.

                             Investigation:

                             On March 29, 1999, we interviewed w i r e c t o r s
                             telephone, to ask h o w a d assured that they                                                                      I


                                            new ownership and that they were not overcharged fo
                                         roducts that were purchased. We requested and
                             following documentation on March 3 1 and April 1, 1999:

                                                                                       charged to the three NSF awards; 3) the D&B
                                                                               b title as postdoctoral fellow under-                        I

                             and 5                                                            if known
                                                                                                                                                        I
                                                                                                                                                        I
                             Findings:                                                                                                                  1
                                               etter indicated the potential for mishse of NSF grant funds by-
                                                evidence to support tha-sused              the $3,741.40 of NSF grant
                             funds to his financial benefit. The dollar mounts of $3,741.40 were minor for materials
                             and supplies, considering the amounts budgeted for each of the three awards.

                             We have concluded that-onducted                       a full and thorough inquiry. The actions taken
                             a g a i n s - -0 --          -              ..
                                                                              response to their findings were appropriate.

                             No further review is warranted at this time. Case is closed.




                                                                   . .

                              m o n f l i c t s of interest policy is in the file.
